\

No.
In the Supreme Court of the United States
Lee Mulcahy
Petitioner,
V.

Aspen Pitkin County Housing Attorney
Respondent

AFFIDAVIT OF SERVICE

I, Lee Mulcahy, of lawful age, being duly sworn, upon my oath certify that on May
7th, 2020 mailed a true and accurate copy of Petition for Certiorari to Thomas Fenton
Smith III (below) in the above case.

I certify that a true and accurate copy of the

Petition for Certiorari was placed in the United States mail, postage prepaid, and
addressed to the following parties on May 7, 2020:

Thomas Fenton Smith III, APCHA Attorney
210 E. Hyman Avenue
Aspen CO 81611

Received
may

13 2020
cour^x

